ES, IG-02-003, Performance Management Related to Agencywide Information Technology Program Goals
IG-02-003
Performance Management Related to
Agencywide Information Technology Program Goals
EXECUTIVE SUMMARY
NASA did not develop information technology (IT) security performance measures
that fully addressed security program performance requirements in the Government
Information Security Reform Act.  Although NASA's Chief Information Officer
established FY 2001 Agencywide IT security performance measures for unclassified
systems, based on our audit work, these measures either did not fully accomplish
NASA's intended Agencywide IT security program goals or did not ensure that NASA
information, data, and systems were adequately protected.
This report contains information that may not be releasable to the
general public.
Rev. December 10, 2001